No. 20-1773
IN THE

Supreme Court of the United States
PASADENA REPUBLICAN CLUB,
Petitioner,
v.
WESTERN JUSTICE CENTER, ET AL.,
Respondents.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 1st day of September, 2021, I caused three copies of the Brief in Opposition
to be served by third-party commercial carrier on the counsel identified below, and
caused an electronic version to be transmitted to the counsel identified below, pursuant
to Rules 29.3 and 29.5 of the Rules of this Court. All parties required to be served have
been served.
Anthony T. Caso
CENTER FOR CONSTITUTIONAL JURISPRUDENCE
CLAREMONT INSTITUTE
1317 West Foothill Blvd., Suite 120
Upland, CA 91786
(877) 855-3330
tcaso@claremont.org

Dawn Cushman
BRADLEY & GMELICH LLP
700 North Brand Blvd., 10th Floor
Glendale, CA 91203
(818) 243-5200
dcushman@bglawyers.com
Counsel for Respondent City of Pasadena

Counsel for Petitioner

William E. Thomson

